                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00911-193


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                  at 

       VA Southern Oregon 

  Rehabilitation Center and Clinics 

         White City, Oregon 





June 26, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         Medication Management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
        CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
        CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of April 21, 2014, at the following
CBOC which is under the oversight of the VA Southern Oregon Rehabilitation Center
and Clinics and Veterans Integrated Service Network 20:

    Grants Pass CBOC, Grants Pass, OR

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                    However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	    The information technology server closet at the Grants Pass CBOC is maintained
      according to information technology safety and security standards.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff provide education and counseling for patients with positive alcohol screens and
      drinking alcohol above National Institute on Alcohol Abuse and Alcoholism limits.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Managers ensure that patients with excessive persistent alcohol use receive brief
      treatment or are evaluated by a specialty provider within 2 weeks of the screening.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed or
      modified.

	    Document the evaluation of patients’ level of understanding for the medication
      education.




VA OIG Office of Healthcare Inspections                                                           i
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
           CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                     Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	    Determine whether the CBOCs are compliant with EOC requirements.

      	    Determine whether CBOCs/PCCs are compliant with VHA requirements in the
            care of patients with AUD.

      	    Determine compliance with requirements for the clinical oversight and patient
            education of fluoroquinolones for outpatients.

      	    Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	    EOC

      	    AUD

      	    MM

      	    DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                              1
       CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH Primary Care Providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
               CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Grants Pass
CBOC. The table below shows the areas reviewed for this topic. The area marked as NM did
not meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.
Table 2. EOC

 NM                     Areas Reviewed                                      Findings
        The CBOC’s location is clearly identifiable
        from the street as a VA CBOC.
 NA     The CBOC has interior signage available that
        clearly identifies the route to and location of
        the clinic entrance.
        The CBOC is Americans with Disabilities Act
        accessible.
        The furnishings are clean and in good repair.
        The CBOC is clean.
        The CBOC maintains a written, current
        inventory of hazardous materials and waste
        that it uses, stores, or generates.
        An alarm system and/or panic buttons are
        installed and tested in high-risk areas (e.g.,
        MH clinic).
        Alcohol hand wash or soap dispenser and
        sink are available in the examination rooms.
        Sharps containers are secured.
        Safety needle devices are available.
        The CBOC has a separate storage room for
        storing medical (infectious) waste.
        The CBOC conducts fire drills at least every
        12 months.
        Means of egress from the building are
        unobstructed.
        Access to fire alarm pull stations is
        unobstructed.
        Access to fire extinguishers is unobstructed.
        The CBOC has signs identifying the locations
        of fire extinguishers.
        Exit signs are visible from any direction.
        No expired medications were noted during
        the onsite visit.



VA OIG Office of Healthcare Inspections                                                                  3
               CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


 NM             Areas Reviewed (continued)                                   Findings
        All medications are secured from
        unauthorized access.
        Personally identifiable information is
        protected on laboratory specimens during
        transport so that patient privacy is
        maintained.
        Adequate privacy is provided to patients in
        examination rooms.
        Documents containing patient-identifiable
        information are not laying around, visible, or
        unsecured.
        Window coverings provide privacy.
        The CBOC has a designated examination
        room for women veterans.
        Adequate privacy is provided to women
        veterans in the examination room.
  X     The information technology network                Access to the information technology network
        room/server closet is locked.                     room/server closet at the Grants Pass CBOC
                                                          was not documented.
        All computer screens are locked when not in
        use.
        Staff use privacy screens on monitors to
        prevent unauthorized viewing in high-traffic
        areas.
        EOC rounds are conducted semi-annually (at
        least twice in a 12-month period) and
        deficiencies are reported to and tracked by
        the EOC Committee until resolution.
        The CBOC has an automated external
        defibrillator.
        Safety inspections are performed on the
        CBOC medical equipment in accordance with
        Joint Commission standards.
        The parent facility includes the CBOC in
        required education, training, planning, and
        participation leading up to the annual disaster
        exercise.
        The parent facility’s Emergency Management
        Committee evaluates CBOC emergency
        preparedness activities, participation in
        annual disaster exercise, and staff
        training/education relating to emergency
        preparedness requirements.

Recommendation

1. We recommended that the information technology server closet at the Grants Pass CBOC
is maintained according to information technology safety and security standards.



VA OIG Office of Healthcare Inspections                                                                  4
               CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 26 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

 NM                     Areas Reviewed                                      Findings
         Alcohol use screenings are completed
         during new patient encounters, and at least
         annually.
         Diagnostic assessments are completed for
         patients with a positive alcohol screen.
  X      Education and counseling about drinking        Staff did not provide education and counseling
         levels and adverse consequences of heavy       for 6 of 20 patients who had positive alcohol use
         drinking are provided for patients with        screens.
         positive alcohol screens and drinking levels
         above National Institute on Alcohol Abuse
         and Alcoholism guidelines.
  X      Documentation reflects the offer of further    We did not find documentation of the offer of
         treatment for patients diagnosed with          further treatment for all three patients diagnosed
         alcohol dependence.                            with alcohol dependence.
         For patients with AUD who decline referral
         to specialty care, CBOC/PCC staff
         monitored them and their alcohol use.
  X      Counseling, education, and brief treatments    Treatment was not provided within 2 weeks of
         for AUD are provided within 2 weeks of         positive screening for two of four patients.
         positive screening.
         CBOC/PCC RN Care Managers have
         received MI training within 12 months of
         appointment to PACT.
         CBOC/PCC RN Care Managers have
         received VHA National Center for Health
         Promotion and Disease Prevention-
         approved health coaching training (most
         likely TEACH for Success) within 12 months
         of appointment to PACT.
         The facility complied with any additional
         elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/Primary Care Clinic staff provide education and counseling
for patients with positive alcohol screens and drinking alcohol above National Institute on
Alcohol Abuse and Alcoholism limits.



VA OIG Office of Healthcare Inspections                                                                      5
               CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


3. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

4. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.




VA OIG Office of Healthcare Inspections                                                                  6
               CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 34 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                     Areas Reviewed                                       Findings
  X     Clinicians documented the medication            We did not find documentation that medication
        reconciliation process that included the        reconciliation included the newly prescribed
        fluoroquinolone.                                fluoroquinolone in 5 of 13 patient EHRs.
        Written information on the patient’s
        prescribed medications was provided at the
        end of the outpatient encounter.
        Medication counseling/education for the
        fluoroquinolone was documented in the
        patients’ EHRs.
  X     Clinicians documented the evaluation of each    Clinicians did not document the level of
        patient’s level of understanding for the        understanding for 8 of 13 patients.
        education provided.
        The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed or
modified.

6. We recommended that staff document the evaluation of patients’ level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                  7
               CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

 NM                    Areas Reviewed                                       Findings
         CBOC and PCC DWHPs maintained
         proficiency requirements.
         CBOC and PCC DWHPs were designated
         with the WH indicator in the Primary Care
         Management Module.




VA OIG Office of Healthcare Inspections                                                                  8
                                                    CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                                                                   Appendix A


                                                                      CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                         Uniques4                                   Encounters4

                                    Station                  CBOC
        Location          State                Locality5                   MH7        PC8       Other9       All        MH7        PC8       Other9       All
                                       #                      Size6
    Klamath Falls         OR       692GA       Rural       Mid-Size          391      2,078      2,272      2,557      2,337       6,467      7,671     16,475
    Grants Pass           OR       692GB       Urban       Small             232      1,342        578      1,471        891       3,666      1,177      5,734




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
        CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                              Tele-Health
           CBOC                                               Ancillary Services12
                                     Services11                                                Services13
    Klamath Falls                  Dermatology                    Laboratory               Tele Primary Care
                                                                  Pharmacy

    Grants Pass                           ---                          ---                 Tele Primary Care
 




10
   Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 


VA OIG Office of Healthcare Inspections                                                                          10
                                                  CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                                                                 Appendix B


                                                         PACT Compass Metrics




                                                                                                                                                            
Data Definition. The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
                e

Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level. Blank cells indicate the absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                               11
                                                   CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.


VA OIG Office of Healthcare Inspections                                                                                                                     12
                                                   CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                  CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                   14
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                     Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:        June 10, 2014

          From:         Director, Northwest Network (10N20)

       Subject:         CBOC and PCC Reviews of the VA Southern Oregon
                        Rehabilitation Center and Clinics, White City, OR

             To:        Director, Seattle Office of Healthcare Inspections (54SE)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)



       1. Thank 	you for the opportunity to respond to the proposed
          recommendations from the Community Based Outpatient Clinic and
          Primary Care Clinic Reviews at the VA Southern Oregon Rehabilitation
          Center and Clinics, White City, Oregon.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If you have additional questions or need further information, please
          contact Susan Green, Survey Coordinator, VISN 20 at (360) 567-4678.




       (original signed by:)
       Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                        15
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                     Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:        June 4, 2014

          From: 	       Director, VA Southern Oregon Rehabilitation Center and
                        Clinics (692/00)

       Subject: 	       CBOC and PCC Reviews of the VA Southern Oregon
                        Rehabilitation Center and Clinics, White City, OR

             To:        Director, Northwest Network (10N20)



       1. On behalf of the VA Southern Oregon Rehabilitation Center & Clinics
          (SORCC), I would like to express my appreciation to the Office of
          Inspector General (OIG) Survey Team for their professional review of
          our Community Based Outreach Clinics and Primary Care Clinics
          conducted April 22, 2014.

       2. We have reviewed and concurred with the findings from this report and
          have added SORCC’s responses addressing each recommendation.

       3. We appreciate the opportunity for the review as a continuing process
          to improve the care we provide for our Veterans. If you have any
          additional questions or need further information, please contact our
          Chief of Quality Management, Laurie Petersen, 541-826-2111
          extension 3625.



       (original signed by:)
       B. Don Burman




VA OIG Office of Healthcare Inspections                                                        16
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the information technology server closet
at the Grants Pass CBOC is maintained according to information technology safety and
security standards.

Concur 

Target date for completion: July 1, 2014

Facility response: A sign-in sheet and Access Standard Operation Policy is now posted
in the closet. Quality Management requires a copy of the logs for the month of April,
May and June. If the logs demonstrate 100% compliance for each month, then Quality
Management will request copies of the log quarterly for two quarters to assure
sustainability.

Recommendation 2. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking alcohol
above National Institute on Alcohol Abuse and Alcoholism limits.

Concur

Target date for completion: December 1, 2014

Facility response: A CBOC/Primary Care alcohol screening and treatment Standard
Operating Procedure (SOP), clarifying professional staff roles and responsibilities for
providing and documenting education and counselling for Veterans with positive alcohol
screen and drinking levels above National Institute on Alcohol Abuse and Alcoholism
limits, will be developed and implemented. Applicable CBOC/ Primary Care staff will be
educated on the new SOP.

Compliance with documenting patient education and counseling provided for patients
with positive alcohol screen and drinking levels above the National Institute on Alcohol
Abuse and Alcoholism limits will be monitored monthly starting in fiscal year 2015 until
the facility demonstrates 90% compliance of one full quarter. Then the monitor will be
moved to a quarterly report. The auditing results will be reported to the Medical Executive
Committee.

Recommendation 3.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.



VA OIG Office of Healthcare Inspections                                                        17
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


Concur

Target date for completion: December 1, 2014

Facility response: The clinical reminder to ensure that staff offer and document further
treatment to patients diagnosed with alcohol dependence will be updated and implemented.
Applicable CBOC/PCC staff will be educated on the updated clinical reminder template.

Compliance with documenting the offer of further treatment to patients diagnosed with
alcohol dependence will be monitored monthly starting fiscal year 2015 and if
90% compliance is demonstrated for one quarter, then quarterly monitoring will occur. The
auditing results will be reported to the Medical Executive Committee.

Recommendation 4. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: December 1, 2014

Facility response: A CBOC/Primary Care alcohol screening and treatment Standard
Operating Procedure (SOP), clarifying professional staff roles and responsibilities for
providing and documenting education and counselling for Veterans with positive alcohol
screen and drinking levels above National Institute on Alcohol Abuse and Alcoholism
limits, will be developed and implemented. Applicable CBOC/ Primary Care staff will be
educated on the new SOP.

Compliance with documentation for patients with excessive persistent alcohol receive
brief treatment or are evaluated by a specialty provider within 2 weeks of the screening
will be monitored monthly and reported to the Medical Executive Committee starting in
fiscal year 2015.

Recommendation 5.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed or modified.

Concur

Target date for completion: November 1, 2014

Facility response: All providers and pharmacy staff caring for outpatients will be
educated regarding the need to complete medication reconciliation including newly
prescribed medications including fluoroquinolones.

By August 1, 2014 outpatient providers and pharmacy will document medication
reconciliation of newly prescribed medications including fluoroquinolones.



VA OIG Office of Healthcare Inspections                                                        18
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR


After implementation Primary Care and pharmacy will do a random audit for 3 months to
verify the process is effective and sustainable. The audit will be reported to Medical
Executive Committee.

Recommendation 6. We recommended that staff document the evaluation of patients’
level of understanding for the medication education.

Concur

Target date for completion: November 1, 2014

Facility response: All providers and pharmacy staff caring for outpatients will be
educated regarding the need to document the patients’ level of understanding of
medication education.

By August 1, 2014 our Pharmacy will be able to initiate a CPRS education note
documentation that will include documentation of education and Veteran’s level of
understanding.

After implementation Primary Care and Pharmacy will do a random audit for 3 months
to verify the process is effective and sustainable. The audit will be reported to Medical
Executive.




VA OIG Office of Healthcare Inspections                                                        19
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sarah Mainzer, RN, JD, Team Leader
Contributors            Mary Noel Rees, MPA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        20
      CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 20 (10N20)
Director, VA Southern Oregon Rehabilitation Center and Clinics (692/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Merkley, Ron Wyden
U.S. House of Representatives: Peter DeFazio, Greg Walden


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        21
         CBOC and PCC Reviews at VA Southern Oregon Rehabilitation Center and Clinics, White City, OR
                                                                                        Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
